          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services


          Infrastructure Series




Audit Report
Infrastructure Improvements at
the Hanford Site




OAS-B-03-03                             May 2003
                                Department of Energy
                                     Washington, DC 20585

                                    May 7, 2003



MEMORANDUM FOR THE ASSISTANT SECRETARY

FROM:
                          Deputy Assistant Inspector General
                            for Audit Services
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Infrastructure Improvements at the
                          Hanford Site"


BACKGROUND

The Department of Energy's Hanford Site was established in 1943 to support the production of
plutonium for the Manhattan Project. Occupying about 560 square miles along the Columbia River
in southeastern Washington, the site is now engaged in the world's largest cleanup effort involving
radioactive and hazardous wastes generated during the plutonium production era. Today, many of
the site's facilities and much of its infrastructure have deteriorated and are operating beyond design
life. Further, a number of general-purpose buildings will soon reach the end of their useful lives
unless significant renovations are completed.

In October 2000, the Office of Environmental Management required the Richland Operations
Office to address these concerns by developing a site infrastructure restoration plan with a ten-year
funding profile and to update the plan annually to reflect changing needs and funding availability.
The plan was designed to identify the site's facility and infrastructure needs considering current site
conditions and capacities, the extent of deferred maintenance, cleanup plans, and other missions.
This audit was conducted to determine whether Richland was addressing its infrastructure
requirements.

RESULTS OF AUDIT

We found that, over the past few years, Richland has faced a number of situations related to
deteriorating infrastructure at the Hanford site. We also observed that between 1998 and 2002,
Hanford's deferred maintenance had risen dramatically, from about $21 million to over $186
million. In addressing infrastructure needs, Richland had not always followed established policy,
nor had it implemented an integrated system for managing facility maintenance. Further, without
an adequate infrastructure to meet mission needs, the Department risks being unable to complete the
Hanford site's cleanup mission safely and within established timeframes. The attached report
includes specific recommendations intended to help Richland address this concern.




                                   @    Printed with soy ink on recycled paper
                                                  -2-


This report is one in a series that the Office of Inspector General has prepared regarding aspects of
the Department's efforts to address its infrastructure requirements. For the past several years, our
office and other reviewers have noted that mission-critical infrastructure has been deteriorating at
an alarming rate and that required maintenance was often not being performed. Our other reports
discuss infrastructure issues facing the Department's national security and science program areas.


MANAGEMENT REACTION

Management generally concurred with the audit finding and three of the four recommendations.
However, management stated that it was not aware of any infrastructure deficiencies that require
immedlate attention and are critical to health and safety of employees. To ensure that appropriate
infrastructure needs are addressed, management stated that it would review the Hanford contractor's
integrated priority list to verify that safety and health related projects are properly included by
September 30,2003. We consider management's comments to be responsive to the intent of the
recommendations.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Richland Operations Office
INFRASTRUCTURE IMPROVEMENTS AT THE HANFORD SITE

TABLE OF
CONTENTS



               Infrastructure Activities


               Details of Finding .......................................................................    1

               Recommendations and Comments ...........................................                      4


               Appendices

               Prior Reports..............................................................................   6

               Objective, Scope, and Methodology ..........................................                  7

               Management Comments ...........................................................               9
                                                                                                      -



INFRASTRUCTURE ACTIVITIES

Infrastructure Concerns   Over the past few years, Richland has faced a number of situations
                          related to deteriorating infrastructure at the Hanford Site. For example:

                              0   In July 2002, a raw water line at the 200 West Area near the
                                  S Farms failed and spilled an estimated 1.7 million gallons of
                                  water into the surrounding areas. Although this particular leak
                                  was eventually contained, water leaks are a major concern for
                                  site management due to their potential to spread contaminants.
                                  A leak that penetrates a contaminated area could flush
                                  contaminants through to the groundwater, further complicating
                                  and slowing down the cleanup process.

                                  In 2001, a trailer at the 233-S Decommissioning Project in the
                                  200 West Area caught fire because preventive maintenance had
                                  not been performed on a heating unit. The trailer was not
                                  occupied at the time; however, the fire caused extensive smoke
                                  and heat damage inside the trailer.

                                  In November 2001, engineers determined that a training
                                  building did not have "a properly finished roofkeiling structure
                                  for normal occupancy." The condition assessment survey
                                  indicated that the facility was used by as many as 100 personnel
                                  daily.

                                  Many projects to repair deteriorating facility components and
                                  replace aging instrumentation at an analytical service laboratory
                                  have been postponed. This facility currently supports several
                                  critical cleanup missions at the Hanford Site including the
                                  Hanford Tank Farms, transuranic waste shipments to the Waste
                                  Isolation Pilot Plant, and other environmental restoration
                                  projects. In addition, this facility will be needed to support
                                  fbture cleanup missions including the Waste Treatment Plant
                                  currently under construction.

                          We also noted that deferred maintenance for the Hanford Site had
                          increased significantly over the past several years. Specifically,
                          Richland's deferred maintenance account balance grew from about
                          $21 million in 1998 to more than $186 million in 2002, nearly a nine-
                          fold increase. Management stated that the $186 million figure
                          accurately reflects the extent of deferred maintenance in 2002;
                          however, the data entered in 1998 was incomplete and the $21 million
                          figure is not accurate. Nevertheless, such a large increase in deferred
                           maintenance is another indicator that Richland may face significant
                           challenges in maintaining a safe and environmentally sound
                           infi-astructure for its mission-essential work.

Identifying and Planning   Our audit disclosed a number of weaknesses in Richland's prioritization
for lnfrastructure         and planning efforts that, if corrected, could help to mitigate the
Improvements               potential seriousness of future infrastructure problems.

                           With regard to prioritization, we found that Richland's May 2001 ten-
                           year infrastructure restoration plan identified a total of 663 infrastructure
                           projects that were given a priority. Of these, 244 were designated "high
                           priority." However, only one high priority project was scheduled to
                           begin in 2002. An additional 56 projects were also scheduled for 2002,
                           but none of these were assigned a priority and consisted primarily of
                            surveillance and deactivation activities. We concluded that either
                           Richland needed to revisit its scheduling - to address the highest priority
                           jobs first - or do a better job of prioritization. In either case, Richland's
                           approach did not appear to be logical or well-documented.

                           In addition, Richland did not always follow established policy for
                           developing restoration plans or maintain a centralized, integrated facility
                           maintenance system. The Department's FY 2001 Performance and
                           AccuuntubiZity Report and Environmental Management guidance for
                           preparing infrastructure restoration plans require that the plans address
                           mission-critical infrastructure requirements through an appropriate mix
                           of renovation and new construction. The plans are to exclude projects
                           for routine surveillance and maintenance, the demolition and disposal of
                           buildings, and other activities that are not directly related to the
                           restoration of mission-critical infrastructure. We found, however, that
                           the Hanford Site plan included more than $20 million for routine
                           surveillance and maintenance and disposal activities. For example,
                           $1.4 million was slated for surveillance and maintenance of Facility
                           272E, and $296,000 for surveillance, maintenance, and disposal of
                           Facility 2710E. Both of these facilities are in standby mode, unused,
                           until money becomes available for demolition. The implication is that
                           scarce fbnds that could be used to upgrade mission-essential facilities
                           may be used, instead, to maintain unused buildings. It was unclear from
                           the site plan that this was the most logical use of resources. In response
                           to the draft report, management stated that most of the $1.4 million
                           associated with Facility 272E was for demolition rather than surveillance
                           and maintenance; however, the infrastructure plan included the entire
                           amount as surveillance and maintenance.




Page 2                                                                             Details of Finding
         Richland had also not established a centralized, integrated system to
         manage facility maintenance at the Hanford Site. The site had multiple
         systems and databases that supported specific portions of the
         maintenance program. The prime contractor maintained two separate
         systems supported by 17 different databases. However, neither of these
         systems contained the integrated financial information needed to
         determine how much is spent on maintenance activities. In fact, it took
         the prime contractor more than four months to develop an estimate of
         maintenance expenses for FY 2001 and an exact figure could not be
         determined. Thus, Richland could not identify costs on a facility-by-
         facility basis, and, therefore, could not determine the most cost-
         effective approach to manage or prioritize maintenance or infrastructure
         restoration needs.

         Finally, the Office of Inspector General is aware that the Assistant
         Secretary for Environmental Management has initiated significant
         changes in the Department's complex-wide approach to facility cleanup.
         These changes, based on Environmental Management's 2002 Top-to-
         Bottom Review, emphasize accelerated, risk-based cleanup. As such,
         previous assumptions about how much Eunding should be devoted to
         infrastructure restoration may no longer be valid. Specifically, a senior
         Department manager told us that Environmental Management plans to
         devote a larger share of its resources to activities that lead to early site
         closure, and a smaller share to infrastructure restoration. While we
         recognize the advantages of such a policy shift, our audit demonstrated
         that, at least at the Hanford Site, additional attention is needed to ensure
         that whatever funds are dedicated to infrastructure are maximized to
         ensure that workers are safe, surrounding areas are protected, and site
         missions are not interrupted.

         During the audit, management started several initiatives to improve the
         focus on critical infrastructure needs at Hanford. For example,
         Richland renegotiated the contract with its site services contractor to
         keep the current infrastructure in acceptable repair and to identify the
         infrastructure necessary to support the accelerated cleanup initiative.
         Also, Richland is in the process of establishing an oversight process to
         ensure critical facilities are adequately maintained. Finally, Richland
         has added an element on infrastructure to the performance plans of the
         Department managers responsible for Hanford's infrastructure. Since
         these are new initiatives and some had not been finalized, we were
         unable to validate the effectiveness of management's actions.




Page 3                                                          Details of Finding
                                                                                                     --




Impact on Safety, Mission   As noted in a January 2002 memorandum from the Assistant
Accomplishment, and         Secretary for Environmental Management, "The Department risks
Operational Efficiency      not being able to meet existing mission objectives if the condition
                            and hctionality of its facilities are not adequately addressed. Aging
                            facilities are operating beyond design life and have deteriorated due
                            to insufficient maintenance.. .Inaddition, poor infrastructure
                            conditions are resulting in increased safety and health risks.. .It is
                            critical that the Department address infrastructure repair,
                            replacement, upgrade, and long-term management in order to
                            mitigate the deteriorating conditions of the Department's facilities."

                            Consistent with the Assistant Secretaryk expressed concerns, the
                            conditions we found at the Hanford Site have the potential to directly
                            affect safety, health, and mission completion. Under the
                            Department's most up-to-date scenario, the site will continue to
                            operate until at least 2035. As such, issues associated with aging
                            facilities will become of even greater significance. Unless such
                            issues are promptly and systematically addressed, the accelerated
                            closure date could, itself, be jeopardized.

RECOMMENDATIONS             We recommend that the Manager, Richland Operations Office:

                               1. Develop and implement a site plan, consistent with
                                  Department and Environmental Management policy, that
                                  hlly identifies mission critical infrastructure and prioritizes
                                  projects accordingly;

                               2. Immediately address maintenance and infi-astructure
                                  restoration needs that could compromise the health and safety
                                  of employees;

                               3. To the extent possible, consolidate and integrate site
                                  infrastructure systems to ensure consistency; and,

                               4. Work with Office of Environmental Management
                                   headquarters to ensure that required infrastructure repairs and
                                   upgrades are identified and funded consistent with
                                   Environmental Management's risk-based accelerated cleanup
                                   approach.




Page 4                                                    Recommendations and Comments
MANAGEMENT   Management generally concurred with the audit finding and three of
REACT10N     the four recommendations. Management only partially concurred
             with recommendation 2, stating that it is not aware of any
             infrastructure deficiencies that are critical to safety and health. The
             contractor is responsible for maintaining employee safety and health,
             and the contract allows the Department to penalize the contractor if
             appropriate priority is not given to safety and health risks.
             Management stated that they will review the contractor's integrated
             priority list to verify that safety and health related projects are
             properly included by September 30,2003. Management's verbatim
             comments are included as Appendix 3.




Page 5                                      Recommendations and Comments
Appendix I

                                          PRIOR REPORTS


     Management Challenges at the Department of Energy (DOE/IG-0538, December 2001). The report
     disclosed that DOE has ten challenge areas that need to be addressed. Infrastructure and Asset
     Management was included in the challenge areas. The report found that the infrastructure is
     deteriorating at an alarming pace and may not be able to meet mission requirements.

     Facility Maintenance at the Idaho National Engineering and Environmental Laboratory (INEEL)
     (WR-B-01-04, March 2001). The audit found that INEEL had not maintained its facilities in a safe
     and economical manner. Serious facility-related problems occurred because management did not, in
     part, devise a computerized maintenance management system that contained complete and reliable
     information. As a result, Idaho's facility maintenance program threatens mission accomplishment,
     personal safety, and it is uneconomical.

     Management of the Nuclear Weapons Production Infrastructure (DOEAG-0484, September 2000).
     The audit found that the nuclear weapons production infrastructure has not been adequately
     maintained, resulting in delays in weapons modifications, remanufacture, dismantlement, and
     testing. The Department has not fully implemented a process to link budget information with
     facility requirements, resulting in, among other things, increased restoration costs. Officials
     estimated that the Department must invest $5 billion to $8 billion more than current budgeted
     amounts over the next 10 years to offset the effects of delayed or neglected infrastructure activities.

     Facilities Information Management System (DOE/IG-0468, April 2000). The audit revealed that the
     Facilities Information Management System (FIMS) did not contain accurate and complete
     information. Therefore, it did not provide the Department with reliable information on its real
     property inventory. As a result, the Department's ability to rely on FIMS for decisions concerning
     real property was questionable.




Page 6                                                                                       Prior Reports
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether Richland has
              developed and implemented an effective infrastructure restoration plan
              for the Hanford Site.

SCOPE         The audit was performed between January and December 2002, at the
              Hanford Site in Richland, Washington, and included infrastructure
              restoration activities and plans for Fiscal Years 2002 through 201 1.
              The audit identified a material internal control weakness that
              management should consider when preparing its yearend assurance
              memorandum on internal controls.

METHODOLOGY   To accomplish this audit objective, we:

                  0   Researched applicable Federal and Departmental regulations;

                  0   Reviewed prior audit reports related to infrastructure
                      maintenance and restoration;

                  0   Reviewed the FY 2001 Performance and Accountability
                      Report;

                  0   Evaluated DOE Environmental Management guidelines for
                      developing site infrastructure restoration plans;

                  0   Analyzed site infrastructure restoration plans for the Hanford
                      Site;

                  0   Reviewed the site's facility condition assessment surveys; and

                  0   Interviewed Department and contractor personnel at the
                      Hanford and Savannah River Sites, the Idaho National
                      Engineering and Environmental Laboratory, and the Office of
                      Environmental Management, regarding the development and
                      implementation of site infrastructure restoration plans.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls and performance measures established under
              the Government Pe$ormance and Results Act of 1993 related to the
              Department's implementation of the infrastructure restoration plans at
              the Hanford Site. Because our review was limited, it would not have


Page 7                                        Objective, Scope, and Methodology
         necessarily disclosed all internal control deficiencies that may have
         existed at the time of our audit. We did not assess the reliability of
         computer-processed data because only a very limited amount of such
         data was used during the audit.

         Management waived the exit conference.




Page 8                                   Objective, Scope, and Methodology
        Appendix 3
DOE   = 1325.6
  iS-EP:
EFG 197 SO,

United States Government                                                                  Department of Energy

memorandum
        DATE:     A p r i l 7 , 2003

   REPLY TO
   ATTN OF.      E,M-43 (Ray Won, 301-903-4526)

                 Office Of ltispector General Draft Audit Report Entitled “Infrastructure Restoration at
                 the Hanford Site” (drafi)
           To    Frederick D. Doggett, Deputy Assi slant Inspector General for -4udit Services

                 The purpose of this inernorandurn is to provide coininents on thc subject report. Your
                 draft report recommends that the Manager of the Richland Operations Office (RL) take
                 action to: (1) develop and implement a site plan, consistent with Department and Office
                 of Environmental Managemcnt (EM) policy, that fully jdentifics mission critical
                 inhstructure and prioritizes projects accordingly; (2) immediately addrcss maintenance
                 and infrastructure restoration needs that could compromise the heal tli and safety of‘
                 employees; ( 3 ) consolidate and integrate site infrastructure systems to cnsure
                 consistency to the extent possible; and (4)work with EM Headquarters to ellsure that
                 required infrastructure repairs and upgrades are identified and funded consistent with
                 EM’S risk-based accelcrated cleanup approach.

                 I agree, in general, with the overall facts and conclusions presented in the draft report
                 and concur with Recommendations -1, -3 and -4. I partially coiicur with
                 Recommendation -2 because we are not aware of any current deficiencies that are
                 critical to safety and health. Alternative solutions can effectively maintain worker safety
                 and health at inactive facilities. Current and planned actions for each recornmcndation
                 are addressed below. Detailed comments regarding thc draft report findings are
                 contained in the attachment to this memorandum

                                        - DOE reccntly negotiated a new contract with Fluor Hanford, Inc.
                 (FI-II) requiring tlie contractor to idcntify tnission critical infrastructure facilities,
                 equipment, and systems that are needed to support long-term cleanup. Maintenance
                 requirements will then be applied depending on the needed lifetime and other
                 circumstances. T h e new contract requires facilities, equipment, and systems that inxist
                 be sustained through 2012 be kept in an adequate condition at the end of fiscal year (FY)
                 2006, at which time thc current contract with FHI expires.

                       0   Action: DOE will assure that contractor assigned infrastructure assets that are
                           valucd at s e a l e r than $25,000 are identified and will be required through
                           FY 2012 to support the cleanup mission by March 31, 2003. DOE, with input
                           from its contractor, will rcview the existing integrated priority list (IPL) to
                           verify that any safety and health related projects are yropcrly included b y
                           September 30, 2003. The contractor is responsible for prioritizing




        Page 9                                                                           Management Comments
Appendix 3 (continued)

                                                                                                    2


              infr-astructurework critical for achieving niission objectives. DOE will
              perfomi a review of the contractor condition assessment system for
              infrastructurc by November 1 , 2003.

     Recommendation 2 - DOE is not aware of any currcnt deficiencies in infrastructure that
     are critical to safety and health. Ilowevcr, the contractor is responsible for maintaining
     employee safety and health. FHI’s planning and work systems are expected to
     iminediately address imminent safety and health issues. For active facilities, there are
     Voluntary Protection Programs (many of “Star status”), safety councils, a “stop work”
     process, and management focus on employee safety. For inactive facilities, access is
     restricted to specially qualified crews that are prcparcd for the hazards. It is recognized,
     however, that long-temi problems may exist. As described above, we are currently in
     the process of identifying and categorizing key infrastructure fxilities, equipment, and
     systems for accelerated cleanup. Maintenance needs will then be prioritized and used as
     a basis for funding decisions. The FHI contract also contains a “Conditional Payment of
     Fee Clause” that allows DOE to penalize FHI if appropriate priority is not given to
     ensure safety and health risks to Hanford employees. The IPL that contains safety and
     health related infrastructure projects will be reviewed.

      Recommendation 3 - DOE agrees with the audit conclusions. Due to the accelerated
      closure of the Hanford Site and the limited useful life remaining on a number of
      facilities, development of a single comprehensive, integrated maintenance management
      system at this time would be very costly with minimal return 011 investment. Therefore,
      as part of implementing Best Business Practices, FHI is reviewing consolidation of
      management systems and maintenance cost accessibility for potential changes that
      improve business management.

               Action: DOE will review the status of the project maintenance center by
               September 30,2003.

     Recommendation 4 - RL will continue to work closely with EM to ensure that adequate
     funds are budgeted for facility mainteiiance and disposition consistent with RL’s Risk
     Management Plan, RL’s Lifecycle Plan, and as mmidated by the FY 2003 Omnibus
     Appropriations Conference Report. FHI’s renegotiated contract includes a Statement of
     Work that requires FHI to provide infrastructure facilities, equipment, and services to
     meet mission needs. Further, the revised contract includes an annual budget profile that
     is consistent with DOE-EM guidance and which the contractor accepted as adequate to
     complete the Statement of Work. Eu. will continue to submit budget requests based on
     the IPL as required by DOE Headquarters.




Page 10                                                                    Management Comments
.
                                                                                            3

     If you have any questions, please call me at (202) 586-7709, or Mr. Mark W. Frei,
     Acting Deputy Assistant Secretary, Office of Pro-jcct Completion, at (202) 586-0370.




                                           Assistant Secretary for
                                            Environmcntai Management

     Attachleiit

     CC:   M. R. Kuklok, IG-36




Page 11                                                                     Management Comments
                                                                               IG Report No. :OAS-B-03-03

                                    CUSTOMER RESPONSE FORM


The Ofice of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of hture reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
